No. 20-6907
In the
Supreme Court of the United States

DASHON HINES
Petitioner,
v.
TOPSHELF MANAGEMENT, et. al.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

REBUTTAL BRIEF

Dashon M. Hines
In Propria Persona
1629 Elmwood Avenue
Buffalo, NY 14207
(716) 553-2006
dashonhines@gmail.com
Acting Pro-Se.

1

REBUTTAL ANSWER TO COUNTERSTATEMENT
ON QUESTION PRESENTED

Petitioner has presented compelling reasons to grant the Petition. The Petitioner exhausted
available remedies from his immediate supervisor at TopShelf Management to this Court. The
issue presented by this Petition is within this Court’s jurisdiction. This Court held that before
filing a 42 U.S.C. § 1983 complaint, a prisoner must first fully, properly and timely exhaust his
administrative remedies. Specifically, as here, failure to properly exhaust remedies below may
not later be cured by claiming that no other remedies remain available. See: Supreme Court
Holds Administrative Remedies Must Be Properly Exhausted Under the PLRA Loaded on
SEPT. 15,2006 by John Dannenberg published in Prison Legal News September, 2006,
page 40 Filed under: PLRA, Administrative Exhaustion (PLRA). Location: California.
Share: Share on Twitter Share on Facebook Share on G+ Share with email by John E.
Dannenberg

2

PARTIED TO THE PROCEEDINGS,
CORPORATE DISCLOSURE STATEMENT,
AND RELATED CASES
There are no parties to the proceeding other than those listed in the caption. Petitioner
Dashon Hines (“Hines”) is Plaintiff in the district court and appellant in the court of appeals.
Respondent Topshelf Management (“Topshelf’) is defendant in the district court and appellee in
the court of appeals.
Pursuant to Rule 29.6 of the Supreme Court Rules, Topshelf states there is no parent or
publicly held company owning 10% or more of the corporation’s stock.
A list of all proceedings in other courts that directly relate to the case in this Court are as
follows:
• Dashon Hines v. Topshelf Management, No. 5:20-cv-505, Northern District of New
York. Judgement entered May 6, 2020.
• Dashon Hines v. New York State Office of Temporary and Disability Assistance,
No. l:20-cv-506, Northern District of New York. Judgment entered May 12, 2020.
• Dashon Hines v. Erie County Department of Social Services, No. 1:20-cv-536,
Northern District of New York. Judgment entered May 15, 2020.
• Dashon Hines v. New York State Department of Labor Staff, No. l:20-cv-517,
Northern District of New York. Judgment entered June 5, 2020.
• Dashon Hines v. Lt. Rose J. Dell, Lt. New York Haven Police Department, No.
5:20-cv-638, Northern District of New York. Judgment entered August 5, 2020.
• Dashon Hines v. TopShelf Management, No. 20-1609, U.S. Court of Appeals for
the Second Circuit. Judgment entered Oct. 22, 2020.
• Dashon Hines v. New York State Office of Temporary and Disability Assistance,
No. 20-1627, U.S. Court of Appeals for the Second Circuit. Judgment entered Oct. 22, 2020.
3

• Dashon Hines v. Erie County Department of Social Services, No. 20-1656, U S.
Court of Appeals for the Second Circuit. Judgment entered Oct. 22, 2020.
• Dashon Hines v. New York State Department of Labor Staff, No. 20-1885, U S.
Court of Appeals for the Second Circuit. Judgment entered Oct. 22, 2020.
• Dashon Hines v. Lt. Rose J. Dell, Lt. New York Haven Police Department, No. 202728, U.S. Court of Appeals for the Second Circuit. Judgment entered Oct. 22,
2020.

4

TABLE OF CONTENTS
Page
REBUTTAL ANSWER TO COUNTERSTATEMENT ON QUESTION PRESENTED

2

PARTIES TO THE PROCEEDINGS, CORPORATE DISCLOSURE STATEMENT,
AND RELATED CASES

3,4

TABLE OF CONTENTS

5

TABLE OF CITED AUTHORITIES

6

REBUTTAL BRIEF IN SUPPORT OF PETITION FOR WRIT OF CERTIORIARI

7

STATEMENT OF THE CASE

9-17

I. BACKGROUND AND FACTS OF THE CASE

9-17

II. PROCEEDINGS BELOW

9-17

A. HINES FILES HIS PETITION FOR A WRIT OF
CERTIORARI

9-17

III. REASONS FOR GRANTING THE PETITION

9-17

IV. HINES’ MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS SHOULD BE GRANTED

9-17

CONCLUSION

17

5

TABLE OF CITED AUTHORITIES
Page(s)
Cases
Dashon Hines v. New York State Department of Labor Staff. No. l:20-cv-517,
Northern District of New York. Judgment entered June 5, 2021

11

Other Authority
June 4, 2019 Supreme Court Rules that Employers Must Timely Raise Failure to Exhaust
Administrative Remedies in Title VII Cases or Risk Forfeiting Right to Challenge by the Labor
and Employment Group(website link:
https://www.ballardspahr.eom/alertspublications/legalalerts/2019-06-04-supreme-ct-rules-thatemplovers-must-raise-failure-to-exhaust-adminremedies.......................................................... ............................................................................. 7
Supreme Court Holds Administrative Remedies Must Be Properly Exhausted Under the PLRA
Loaded on SEPT. 15, 2006 by John Dannenberg published in Prison Legal News September,
2006, page 40 Filed under: PLRA, Administrative Exhaustion (PLRA). Location: California.
Share: Share on Twitter Share on Facebook Share on G+ Share with email by John E.
7,8
Dannenberg
Statutes and Other Authorities
“Coronavirus Aid, Relief, and Economic Security Act” or the “CARES
Act”...................................................................................................................

6

9

REBUTTAL BRIEF IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
In his pro-se Petition, Hines seeks permission to appeal to this Court to “redress grievances
without fear of punishment or reprisals.” The Petition raise valid legal grounds that
warrant consideration by this Court. Procedural determinations was made by the lower district
courts.
Petitioner has presented compelling reasons to grant the Petition. The Petitioner exhausted
available remedies from his immediate supervisor at Top Shelf Management to this Court. On
Monday, June 3, 2019, this Court issued a decision in Fort Bend County v. Davis, nanimously
finding that Title VIPs administrative exhaustion requirement is not jurisdictional and that
employers may forfeit the right to challenge Title VII claims on the basis of the employee’s
failure to exhaust administrative remedies, if such challenges are not raised in a timely
fashion. See: June 4,2019 Supreme Court Rules that Employers Must Timely Raise Failure
to Exhaust Administrative Remedies in Title VII Cases or Risk Forfeiting Right to
Challenge by the Labor and Employment Group, (website link:
https://www.ballardspahr.com/alertspublications/legalalerts/2019-06-04-supreme-ct-rules-thatemplovers-must-raise-failure-to-exhaust-admin-remedies) The issue presented by this Petition is
within this Court’s jurisdiction. This Court held that before filing a 42 U.S.C. § 1983 complaint,
a prisoner must first fully, properly and timely exhaust his administrative remedies. Specifically,
as here, failure to properly exhaust remedies below may not later be cured by claiming that no
other remedies remain available. See: Supreme Court Holds Administrative Remedies Must
Be Properly Exhausted Under the PLRA Loaded on SEPT. 15, 2006 by John Dannenberg
published in Prison Legal News September, 2006, page 40 Filed under: PLRA,
7

Administrative Exhaustion (PLRA). Location: California. Share: Share on Twitter Share
on Facebook Share on G+ Share with email by John E. Dannenberg
Given that the issue determined below does not present any novel legal issues to be considered
by this Court, Hines’ Petition for a Writ of Certiorari should be granted.

8

STATEMENT OF THE CASE

I. BACKGROUND AND FACTS OF THE CASE
Only a brief statement of facts is necessary given the procedural posture of this case. This
litigation is in the earliest stages and Topshelf has yet to file a responsive pleading. Hines is a
former employee of Topshelf. Hines was terminated in mid-March 2020 as a direct result of the
COVID-19 pandemic. Hines was notified he was being terminated, along with many other
employees, in mid-March 2020.
ALL RE LEIF DUE TO HINES UNDER THE CARES ACT WAS DENIED!
Hines was notified he was being terminated, along with many other employees, in midMarch 2020. Hines was informed by his employer that remedies under the termination of
employment would be provided through the “Coronavirus Aid, Relief, and Economic Security
Act” or the “CARES Act”.
See Counsel-in-Opposition Brief, page 2, paragragh 2.
"STATEMENT OF THE CASE
I. BACKGROUND AND FACTS OF THE CASE
Hines is a former employee of Topshelf. Hines was terminated in mid-March 2020 as a
direct result of the COVTD-19 pandemic. Hines was notified he was being terminated,
along with many other employees, in mid-March 2020. "

Hines was informed by his employer that remedies under the termination of employment
would be provided through the “Coronavirus Aid, Relief, and Economic Security Act” or
the “CARES Act”. HOWEVER, COVID-19 RELIEF WAS NOT PROVIDED AT ALL.
ALL RELK1F DUE TO HINES UNDER THE CARES ACT WAS DENIED!

COMPANY EMAIL ON COVID-19 TO ALL EMPLOYEES:
9

TopShelf Company Email informed Hines of the following:
"Hospitality Changes
Inbox
Fierle, Erin <Erin.Fierle@psentertainment.com>
Thu, Mar 19, 2020, 5:01 PM
to Dominic, Christie, Amanda
On Behalf of Dominic Verni, VP of Hospitality:
We would prefer to communicate this message to you in person, but unfortunately due to
government bans on mass gatherings we are unable to do so. This was the best way to
ensure everyone received the same communication at the same time.
Due to the unforeseeable Coronavirus pandemic and state mandates we are not able to
sustain our business levels which is impacting our ability to continue operating.
We have made the difficult decision to lay-off all our hourly team members effective
3/3/2020. This decision was not made lightly.
Every impacted employee will be receiving a termination letter along with a record of
employment for unemployment filing via email and USPS mail.
Below are some additional resources that may be available to you regarding extra
aid/assistance. Please note this is not an inclusive list as this is a fluid situation.
Unemployment Claim Filing Instructions
https://www.labor.nv.gov/ui/Ddfs/Unemplovment-Filing-Instructions.pdf
Waive of 7-day hold on Unemployment claims
National Bartender Relief Fund https://www.usbgfoundation.org/beap
Spectrum Internet Options - https://www.spectrum.com/browse/content/spectrum-internetassist
FreshFix - Local produce delivery aid - https://www.freshfix.com/
Need info? Follow a local news station on twitter and you will get up to date info regarding
state and federal Corona virus updates to your phone!
EAP(Employee Assistance Program) through eviCore, providing stress management
through a difficult time, www.palladianeap.com

10

As a valuable asset to our hospitality family when business returns to normalcy, we
encourage you to come back and apply for an open position. You will be amongst the first
considered to re-join our teams.
We appreciate all of your current and future efforts to support our organization during
this pandemic and we will continue to support each one of you the best we can during these
tough times.
Feel free to reach out with any questions you may have.
Stay healthy and safe.
Pegula Sports + Entertainment
Erin Fierle - SPHR, SHRM-SCP | Senior HR Manager // Human Resources
PEGULA SPORTS + ENTERTAINMENT
79 Perry St., STE 300 Buffalo, NY 14203
O: 716-855-4030"
Under the Cares’ Act, "one form of relief' was immediate application and grantment of
unemployment benefits. However. Hines and his co-workers request for unemployment
benefits was denied!
See: Dashon Hines v. New York State Department of Labor Staff. No. l:20-cv-517,
Northern District of New York. Judgment entered June 5, 2020.
In Hines v. New York State Department of Labor Staff,
Hines Held:
"OBJECTIONS
Dashon Hines, herein after: "Petitioner", OBJECTS to the Report and Recommendation in its
entirety. "The ENTIRE Report and Recommendation" see: Dashon Hines v. New York
State Department of Labor Staff. l:20-cv-517 (DNH/ATB)(citing: Roldan v. Roacette, 984
F.2d 85, 89 (2d Cir. 1993)(citing: Small v. Secretary of Health and Human Services. 892
F.2d 15 (2d Cir. 1989)); 28 U.S.C. section 636(b)(1); Fed. R. Civ. P. 6(a), 6(e), 72.) at pages 9
and 10 of Report and Recommendation.
OBJECTIONS:
IFP APPLICATION
Petitioner hereby objects to the order rendering the IFP Application applicable to the portion
of these proceedings which cover brief discussion of the objections and a specifc order by
11

the Court. The IFP Application was sufficient on its face! Further, inquiry by this Court
(Federal Review) determined that the Petitioner's financial means is "unemployed and he is
receiving public assistance benefits. The IFP Application should be granted in all respects!
Petitioner objected to the order rendering the Complaint be dismissed for failure to state a claim
pursuant to 28 U.S.C. section 1915(e)(2)(B)(iii).
The lower district court determined that venue was proper! see page 8 of Report and
Recommendation. The Court analysis of David v. Commissioner of Labor. No. 91 Civ. 7987,
1992 WL 25200 (S.D.N.Y. Jan. 31, 1992) in contrast to the current case at hand is not "on all
fours."
In David, the court determined that dismissal was proper due that Petitioner being "heard by an
administrative proceeding, his challenge was to the result of the proceedings, rather than
the procedure employed, and his complaint to disclose any 'unreasonable delay' in the
procedure. Id." In the instant case, the Petitioner has presented a complaint and direct evidence
that he is not being heard by an administrative proceeding even after request! The "procedure
employed" caused "unreasonable delay." The Petitioner's complaint disclosed
"unreasonable delay" in procedure with direct evidence. Petitioner's complaint explains
initiation of these proceedings due to the "delay," "procedures," and "disclosed
unreasonable delay in the procedure." David, supra.
The relief requested by the Petitioner is well within this Court's jurisdiction given David, supra.
The procedure from initation of an unemployment claim until issue of benefits has a due process
component. The unreasonable delay arguement by the Petitioner is sufficient on its face!
Petitioner argues unreasonable delay in procedure to process his unemployment claim resulting
issuance of benefits. The claim is for March 20,2020. The Respondent has not issued benefits as
indicated as of May 21, 2020. Over sixty days! The Petitioner's request for action before an
administrative proceeding has been denied!
In David, this Court identified a reasonable time table for steps in the claim process. The
reasonable time in procedure have been violated in the instant case before the Court. The
Petitioner requested the Court enter an order granting his benefits. This Court has the authority to
rule on the merits of unreasonable delay arguements as determined in David.
The Respondents have GRANTED the Petitioner's claim for unemployment benefits and
alleged: "Release Date" of benefits. However, the Petitioner benefits have not been issued to
the bank of his choice. His current bank account balance is $0. (Zero Dollars! even after the
Respondents have indicated on a Public Government Website. Dashon Hines v. New York
State Department of Labor Staff. l:20-cv-517 (DNH/ATB).
Disbursement of Unemployment Benefits is administrative. The Petitioner's arguement that
the benefits contain a "Release Date" of such benefit but Petitioner has not received the benefit
is administrative. Further, the Petitioner's request for action before an administrative body and
reasonable occurrance has been denied and is a violation of his due process rights as outlined in
David as an unreasonable delay.”
In Dashon Hines v. Lt. Rose J. Dell, Lt. New York Haven Police Department, No. 2012

2728, U.S. Court of Appeals for the Second Circuit. Judgment entered Oct. 22,
2020,

Hines Held:
"28 U.S.C. section 1391(b)

28 U.S.C. section 1391(b)
Under 28 U.S.C. section 1391(b)(2), venue is proper when “omissions giving rise to the claim
occurred.”
B. Application
Venue is proper;
Investigation into pleadings submitted in Hines v. TopShelf Management. Docket Number:
20-1609 (United States Court of Appeals for the Second Circuit)(May 21,2021) and Hines
v. Bryant Stratton College. Docket Number: 20-1622 (United States Court of Appeals for
the Second Circuit)(May 21, 2021) lead to the contact of Patricia King, Corporation Counsel,
Office of the Corporation Counsel, City of New Haven, 165 Church Street-4th Floor, New
Haven, CT 06510, Tel: 203-946-7951, Cell: 203-668-9282, Fax: 203-946-7942.
pk.ing@.newhavenct. gov
Mrs. King was cooperative when contacted on June 2, 2021 at 4; 15pm; However, Mrs. King
refuse to cooperate on June 4, 2021 at 9:29AM.
In my capacity as a pro se petitioner before the United States District Court for the Northern
District of New York, I demand that you notify your supervisor of my wish to file a complaint
against you regarding your previous response, see link:
https://wwwl.nvc.gov/site/ccrb/complaints/file-online.page
UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF NEW YORK DASHON
HINES, PETITIONER, OBJECTIONS vs. CASE NUMBER 1:20-CV-517 (DNH/ATB) NEW
YORK STATE DEPARTMENT OF LABOR STAFF. DEFENDANTS.

In the event, I do not hear from your supervisor, I will assume you did nothing concerning
request to speak with your supervisor and submit formal complaints against you for misconduct,
see link: https://en.wikipedia.org/wiki/Police_misconduct

13

EVIDENCE

In Forrest v. Parry. (No. 16-4351) (3d Cir. 2019):
“The Third Circuit ruled that the lower court erred in refusing to consider parts of the
evidence put forth by Forrest for the second and third categories of his lawsuit.”

On June 2 2021 at 4:15PM: Mrs. King made the following statement:
"Dear Mr. Hines:
I am responding to numerous emails that you have sent to me regarding your complaint about the
deposit of your unemployment benefits to Bank Mobile Vibe Bank at 115 Munson Street., New
Haven. I understand that you have made a complaint to the New Haven Police Department. If
you have done so, I assume you have a case number and contact information for the officer who
took your complaint. Please direct all your emails to the officer in charge of your case. As
Corporation Counsel it is not my job to investigate criminal complaints; that is done by the New
Haven Police Department.
Kindly direct all your emails, past and future, to the appropriate person at the Police Department
so that they can maintain communication with you regarding any developments in your matter.
Thank you very much for your anticipated cooperation.
Pat King

Patricia King
Corporation Counsel
Office of the Corporation Counsel
City of New Haven
165 Church Street-4th
On June 4 2021 at 9:29AM: Mrs. King made the following statement:
"Dear Mr. Hines:
Please stop sending me these emails. To repeat my email of yesterday, if you have reported a
crime to the New Haven Police Department, you should be corresponding directly with someone
there. I am the Corporation Counsel, and my office is not a law enforcement department.

14

Please resend your messages to whoever at the Police Department is assigned to your case. I will
not forward them. I understand that your matter is important to you, and you can work most
efficiently by dealing directly with the Police Department.
Thank you for your cooperation.
Pat King

Patricia King
Corporation Counsel
Office of the Corporation Counsel
City of New Haven
165 Church Street-4th Floor
New Haven, CT 06510
Tel: 203-946-7951
Cell: 203-668-9282
Fax: 203-946-7942
pking@newhavenct. gov"

On June 4,2020, at 1:06pm, Lt Rose J. Dell made the following statement:

“Mr. Hines,

Please do not contact Patricia King of Corporation Counsel regarding the incident you w:49ant
investigated by the Police Department. You need to speak with the investigating Officer. Please
call either the non-emergency number at 203-946-6316 or 203-946-6255 to speak with the Front
Desk Sergeant.

Thank you,

Lieutenant Rose J. Dell

15

New Haven Police Department
Officer-in-Charge
Records Unit
1 Union Avenue
New Haven, CT
203-507-3107"
On June 4, 2020, at 7:39pm, The Plaintiff: Dashon Hines
responded to Lt, Rose J. Dell’s statement:
“In my capacity as a pro se petitioner before the United States District Court for the Northern
District of New York, I demand that you notify your supervisor of my wish to file a complaint
against you regarding your previous response, see link:
https://wwwl.nvc.gov/site/ccrb/complaints/file-online.page
UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF NEW YORK DASHON
HINES, PETITIONER, OBJECTIONS vs. CASE NUMBER 1:20-CV-517 (DNH/ATB) NEW
YORK STATE DEPARTMENT OF LABOR STAFF. DEFENDANTS.
In the event, I do not hear from your supervisor, I will assume you did nothing concerning
request to speak with your supervisor and submit formal complaints against you for misconduct,
see link: https://en.wikipedia.org/wiki/Police_misconduct”
See page 2 (two) of Report and Recommendation by The Hon. Andrew T. Baxter in Dashon
Hines v. Lt. Rose J. Dell, Lt. New Haven Police Department.
Four business days later, the Plaintiff did not hear from Lt. Dell supervisor and/or any other
member of the New Haven Police Department surrounding his request to speak with Lt. Dell
supervisor.
In Forrest v. Parry. (No. 16-4351) (3d Cir. 2019):
“The Third Circuit ruled that the lower court erred in refusing to consider parts of the evidence
put forth by Forrest for the second and third categories of his lawsuit. The court ruled that, “We
conclude that aspects of all three theories should survive when the evidence ... is
considered in its entirety.” On the dismissal of the general failure to supervise category, the
court stated, “The evidence presented by Forrest may convince a reasonable jury that
Camden’s failure to supervise and discipline its officers amounted to deliberate
indifference to the rights of individuals with whom those officers would come into contact.”
The court observed that, “The record would support a finding that Camden’s policymakers
knew that their officers would require supervision, that there was a history of officer
supervision being mishandled, and that, in the absence of such supervision, constitutional
violations were likely to result.”

16

THE COVID-19 PANDEMIC
I.

The COVTD-19 PANDEMIC has resulted in deaths of over 500,000 Americans.
See link:

https://www.voutube.com/watch?v=gC2ZHFh Y E&list=RDCMUCeY0bbntWz/Vlai2
z30igXg:
The Petition should be granted!

17

